Audit Report

Madd Victim Services and Public Awareness Initiative Grant Awarded to Mothers Against Drunk Driving

Audit Report  GR-80-05-006


July 2005
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, completed an audit of the MADD Victim Services and Public Awareness Initiative Grant Number 2004-DD-BX-K008, awarded by the U.S. Department of Justice (DOJ), Office of Justice Programs (OJP), Office for Victims of Crime, to Mothers Against Drunk Driving (MADD) located in Irving, Texas. 

The purpose of the MADD program is to address underage drinking and drunk driving issues ranging from prevention to victim support.  MADD proposed this grant to provide new services, further the development of key programs, and expand successful campaigns.  The MADD proposal included 10 programs to provide resources and services ranging from an elementary prevention curriculum to an awareness campaign focusing on services available to those impacted by drunk driving.  Also included in their proposal was the strategic growth of three key youth interventions:  (1) a middle school curriculum, (2) an on-line high school course, and (3) a high school community-based project to engage students across the country.  Further, this proposal included the expansion of an adult awareness campaign targeting the most at-risk population in regard to impaired driving  21 to 34 year-old drinking males. 

On August 12, 2004, MADD was awarded a total of $2,473,694 to support its efforts to address underage drinking and drunk driving and to provide victim support.  On January, 12, 2005, MADD requested approval for a modification within the scope and nature of some of its programs.  They wanted to place a greater emphasis on partnerships with law enforcement to help reduce the prevalence of deaths and injuries associated with drunk driving.  The request was approved by OJP on February 9, 2005.  This modification did not require additional funds.  However, MADD did request and received approval to redistribute some of the amounts in its budget categories. 

As part of the audit, we tested MADDs compliance with essential grant conditions  reporting, grant drawdowns, budget management and control, and grant expenditures.  In addition, we tested the accounting records to determine if costs reimbursed under the grant were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and the terms and conditions of the grant.  Our audit objectives, scope, and methodology appear in Appendix I of this report.  While we did find minor discrepancies, we did not take exception to them because they were immaterial.  As a result, we did not question any costs claimed under this grant.